HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation Blue Cross and Blue Shield of Mississippi, (A-07-97-01209)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation Blue Cross and
Blue Shield of Mississippi," (A-07-97-01209)
September 8, 1997
Complete Text of Report is available in PDF format
(1.23 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Medicare Contractor's
Pension Segmentation, Blue Cross and Blue Shield of Mississippi (Mississippi).
Our review showed that Mississippi understated Medicare segment pension assets
as of 1986 by $224,711. The understatement occurred because Mississippi omitted
certain Medicare segment cost centers in determining Medicare's initial assets.
However, Mississippi's update of the Medicare segment assets from Plan Year
1986 to Plan Year 1996 overstated segment assets by $950,412. The overstatement
primarily occurred because Mississippi did not make the correct transfer adjustment.
We recommended that Mississippi decrease the January 1, 1996 assets of the Medicare
segment by $725,701 (950,412 less $224,711). Mississippi accepted our recommendation.